No.

In the Supreme Court of the United States

Asa Lea,
Petitioner
v.
United States of America,
Respondent

On Petition for Writ of Certiorari to the United States Court of Appeals for
the District of Columbia Circuit

Motion for Leave to Proceed in Forma Pauperis
Pursuant to Supreme Court Rule 39.1, on this 14th day of June 2021
petitioner Asa Lea moves for leave to proceed in forma pauperis. The United States
District Court for the District of Columbia and the United States Court of Appeals
for the District of Columbia Circuit have each appointed counsel for the petitioner,
pursuant to the Criminal Justice Act of 1964. 18 U.S.C. ยง 3006A. Accordingly, no
financial affidavit is attached.

/s/ William

L. Welch, III

William L. Welch, III
5305 Village Center Drive, Suite 142
Columbia, Maryland 21044
wlw@wwelchattorney.com
Telephone: (410) 615-7186
Facsimile: (410) 630-7760
Counsel for Asa Lea, Petitioner
(Appointed by the pursuant to
Criminal Justice Act)

2

the

